EXHIBIT B
Case: 19-5636 Document:1 Filed: 06/13/2019 Page: 1

UNITED STATES COURT OF APPEALS

FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
Deborah S. Hunt POTTER STEWART U.S. COURTHOUSE Tel. (513) 564-7000
Clerk CINCINNATI, OHIO 45202-3988 www.ca6.uscourts.gov

Filed: June 13, 2019

Mr. Seth A. Hancock
Office of the U.S. Attorney
501 Broadway

Room 29

Paducah, KY 42001

Mr. Michael Trent Lee
McCarroll, Nunley, Hartz & Lee
P.O. Box 925

Owensboro, KY 42302

Re: Case No. 19-5636, USA v. Tyslen Baker
Originating Case No. : 4:17-cr-00007-1

Dear Counsel,

This appeal has been docketed as case number 19-5636 with the caption that is enclosed on a
separate page.

As defendant's trial counsel, your appointment under the Criminal Justice Act is extended
automatically pursuant to Sixth Circuit Rule 12(c)(2). This letter serves as your authorization
to order any transcript which you deem necessary for the appeal. Even if the defendant filed
the notice of appeal, Sixth Circuit Rule 12(c)(1) requires that counsel continue representation on
appeal until specifically relieved by this Court.

Before preparing any documents to be filed, counsel are strongly encouraged to read the Sixth
Circuit Rules at www.ca6.uscourts.gov. If you have not established a PACER account and
registered with this court as an ECF filer, you should do so immediately. Your password for
district court filings will not work in the appellate ECF system.

At this stage of the appeal, the following forms should be downloaded from the web site and
filed with the Clerk's office by June 27, 2019. Additionally, the transcript order must be
completed by that date.
Case: 19-5636 Document: 1 Filed: 06/13/2019 Page: 2

NOTE: Effective July 18, 2016, all attorneys must order transcript for appeal by using the
CM/ECF docket entries, The transcript order form used prior to that date will not be accepted
after July 18. For further information and instructions on ordering transcript electronically,
please visit the court's website.

Appellant: Appearance of Counsel
Application for Admission to 6th Circuit Bar (if applicable)

Appellee: Appearance of Counsel
Application for Admission to 6th Circuit Bar (if applicable)

More specific instructions are printed on each form. If the filing fee for the appeal is due
because the appellant is not indigent, it must be paid to the District Court by June 27,
2019. These deadlines are important -- if the initial forms are not timely filed or the filing fee is
due but not paid, the appeal will be dismissed for want of prosecution.

If you have questions after reviewing the forms and the rules, please contact the Clerk's office
for assistance.

Sincerely yours,

s/C. Anthony Milton
Case Manager
Direct Dial No. 513-564-7026

Enclosure
